CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 25th Day of October, 2020,
1 original and 3 copies of the foregoing Petition for Writ of
Certiorari was sent Attorney Brian E. Frosh, Esquire, Attorney
for all Respondents via U.S. Postal, Regular Mail, Postage
Pre-Paid to:
Brian E. Frosh
Maryland Attorney General
Office of Attorney General
200 St. Paul Place, 17th Floor
Baltimore, Maryland 21202
(410) 576-6311
Email: oag@oag-state.md.us and/or
bfrosh@oag.state.md.us
Attorney for All Respondents
I hereby certify under penalties or perjury that the foregoing is
true and correct.

Mitzi Elaine I
The DaileyLaw Group, LLC
P.O. Box 22297
Baltimore, MD 21203
Tel: (443)915-3149
Petitioner, Pro Se

23

Received
MOV - 2 2020

